<html>
<title> - THE INCLUSIVE HOME DESIGN ACT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]









                     THE INCLUSIVE HOME DESIGN ACT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   HOUSING AND COMMUNITY OPPORTUNITY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 29, 2010

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 111-163



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                  U.S. GOVERNMENT PRINTING OFFICE
62-688 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 BARNEY FRANK, Massachusetts, Chairman

PAUL E. KANJORSKI, Pennsylvania      SPENCER BACHUS, Alabama
MAXINE WATERS, California            MICHAEL N. CASTLE, Delaware
CAROLYN B. MALONEY, New York         PETER T. KING, New York
LUIS V. GUTIERREZ, Illinois          EDWARD R. ROYCE, California
NYDIA M. VELAZQUEZ, New York         FRANK D. LUCAS, Oklahoma
MELVIN L. WATT, North Carolina       RON PAUL, Texas
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
BRAD SHERMAN, California             WALTER B. JONES, Jr., North 
GREGORY W. MEEKS, New York               Carolina
DENNIS MOORE, Kansas                 JUDY BIGGERT, Illinois
MICHAEL E. CAPUANO, Massachusetts    GARY G. MILLER, California
RUBEN HINOJOSA, Texas                SHELLEY MOORE CAPITO, West 
WM. LACY CLAY, Missouri                  Virginia
CAROLYN McCARTHY, New York           JEB HENSARLING, Texas
JOE BACA, California                 SCOTT GARRETT, New Jersey
STEPHEN F. LYNCH, Massachusetts      J. GRESHAM BARRETT, South Carolina
BRAD MILLER, North Carolina          JIM GERLACH, Pennsylvania
DAVID SCOTT, Georgia                 RANDY NEUGEBAUER, Texas
AL GREEN, Texas                      TOM PRICE, Georgia
EMANUEL CLEAVER, Missouri            PATRICK T. McHENRY, North Carolina
MELISSA L. BEAN, Illinois            JOHN CAMPBELL, California
GWEN MOORE, Wisconsin                ADAM PUTNAM, Florida
PAUL W. HODES, New Hampshire         MICHELE BACHMANN, Minnesota
KEITH ELLISON, Minnesota             KENNY MARCHANT, Texas
RON KLEIN, Florida                   THADDEUS G. McCOTTER, Michigan
CHARLES A. WILSON, Ohio              KEVIN McCARTHY, California
ED PERLMUTTER, Colorado              BILL POSEY, Florida
JOE DONNELLY, Indiana                LYNN JENKINS, Kansas
BILL FOSTER, Illinois                CHRISTOPHER LEE, New York
ANDRE CARSON, Indiana                ERIK PAULSEN, Minnesota
JACKIE SPEIER, California            LEONARD LANCE, New Jersey
TRAVIS CHILDERS, Mississippi
WALT MINNICK, Idaho
JOHN ADLER, New Jersey
MARY JO KILROY, Ohio
STEVE DRIEHAUS, Ohio
SUZANNE KOSMAS, Florida
ALAN GRAYSON, Florida
JIM HIMES, Connecticut
GARY PETERS, Michigan
DAN MAFFEI, New York

        Jeanne M. Roslanowick, Staff Director and Chief Counsel
           Subcommittee on Housing and Community Opportunity

                 MAXINE WATERS, California, Chairwoman

NYDIA M. VELAZQUEZ, New York         SHELLEY MOORE CAPITO, West 
STEPHEN F. LYNCH, Massachusetts          Virginia
EMANUEL CLEAVER, Missouri            THADDEUS G. McCOTTER, Michigan
AL GREEN, Texas                      JUDY BIGGERT, Illinois
WM. LACY CLAY, Missouri              GARY G. MILLER, California
KEITH ELLISON, Minnesota             RANDY NEUGEBAUER, Texas
JOE DONNELLY, Indiana                WALTER B. JONES, Jr., North 
MICHAEL E. CAPUANO, Massachusetts        Carolina
PAUL E. KANJORSKI, Pennsylvania      ADAM PUTNAM, Florida
LUIS V. GUTIERREZ, Illinois          KENNY MARCHANT, Texas
STEVE DRIEHAUS, Ohio                 LYNN JENKINS, Kansas
MARY JO KILROY, Ohio                 CHRISTOPHER LEE, New York
JIM HIMES, Connecticut
DAN MAFFEI, New York













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    September 29, 2010...........................................     1
Appendix:
    September 29, 2010...........................................    19

                               WITNESSES
                     Wednesday, September 29, 2010

Barrera, Alberto, Manager, Community Development, Access Living 
  of Metropolitan Chicago........................................     7
Buckland, Kelly, Executive Director, National Council on 
  Independent Living (NCIL)......................................     8
Schakowsky, Hon. Janice D., a Representative in Congress from the 
  State of Illinois..............................................     3
Smith, Eleanor A., Director, Concrete Change.....................     5
Smith, Janet L., Associate Professor, and Co-Director of the 
  Nathalie P. Voorhees Center for Neighborhood and Community 
  Improvement, University of Illinois at Chicago.................    10

                                APPENDIX

Prepared statements:
    Schakowsky, Hon. Janice D....................................    20
    Barrera, Alberto.............................................    23
    Buckland, Kelly..............................................    27
    Smith, Eleanor A.............................................    35
    Smith, Janet L...............................................    40

              Additional Material Submitted for the Record

Waters, Hon. Maxine:
    Written statement of The Access Center for Independent 
      Living, Inc................................................    50
    Written statement of AARP....................................    51
    Written statement of a coalition of disability advocates from 
      across the country.........................................    53
    Written statement of the Consortiun for Citizens with 
      Disabilities...............................................    60
    Written statement of Paralyzed Veterans of America (PVA).....    62
    Written statement of Pima County Development Services........    65
Capito, Hon. Shelley Moore:
    Written statement of the National Association of Home 
      Builders (NAHB)............................................    66

 
                     THE INCLUSIVE HOME DESIGN ACT

                              ----------                              


                     Wednesday, September 29, 2010

             U.S. House of Representatives,
                        Subcommittee on Housing and
                             Community Opportunity,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 4:12 p.m., in 
room 2128, Rayburn House Office Building, Hon. Maxine Waters 
[chairwoman of the subcommittee] presiding.
    Members present: Representatives Waters and Capito.
    Also present: Representative Schakowsky.
    Chairwoman Waters. This hearing of the Subcommittee on 
Housing and Community Opportunity will come to order.
    Good morning, ladies and gentlemen. I would like to thank 
the ranking member and the other members of the Subcommittee on 
Housing and Community Opportunity for joining me today for this 
hearing on the Inclusive Home Design Act, which was introduced 
last year, and has consistently been introduced since the 107th 
Congress, by my colleague, Congresswoman Jan Schakowsky of 
Illinois.
    Congresswoman Schakowsky played a critical role in the 
comprehensive health care reform we achieved this Congress, and 
has been a consistent advocate and ally of the interests of 
women and our Nation's seniors. And I am pleased to hold this 
hearing for legislation she has authored.
    As the witnesses here today will attest to, we have a 
growing population of individuals in this Nation who have a 
disability, or who may acquire a disability as they age. 
Currently, as one of our witnesses will mention, about 32 
percent of all households in the United States include at least 
one person with a disability. That's about 35 million 
households. And, as the Baby Boomer generation ages, the 
population of individuals with disabilities is only expected to 
increase.
    Additionally, we have an increasingly large number of 
wounded veterans searching for accessible housing as our 
soldiers return from wars in Iraq and Afghanistan.
    So these demographic questions raise important public 
policy questions. What can we do to increase the housing 
options available to individuals with disabilities? As a 
Nation, we have already taken some steps to address 
accessibility for people with disabilities. Section 504 of the 
1973 Rehabilitation Act requires public housing authorities and 
nonprofit developers to comply with certain accessibility 
standards, while the Fair Housing Act requires multi-family 
properties to meet certain specifications. And the Americans 
with Disabilities Act requires accessibility in commercial and 
public spaces.
    Congresswoman Schakowsky's bill is a forward-looking next 
step which considers how we can increase the supply of 
accessible single-family homes by requiring new construction to 
comply with certain accessibility standards. By increasing this 
supply of accessible housing, we can allow more seniors to age 
in place, provide greater housing choices for individuals with 
disabilities, and allow people with disabilities to more easily 
visit friends and family.
    I am very interested to learn more about the localities 
that have already implemented measures similar to those 
included in the Inclusive Home Design Act, and what the impact 
of those local laws and regulations have been on individuals 
with disabilities, and on the local real estate and home 
construction markets.
    I would now like to recognize our subcommittee's ranking 
member to make an opening statement.
    Mrs. Capito. Thank you, Madam Chairwoman. Thank you for 
having the hearing here today. I would like to thank the 
witnesses who are going to be testifying, and our colleague, 
Congresswoman Jan Schakowsky, on H.R. 1408, the Inclusive Home 
Design Act, which, as we have heard, aims to make federally-
funded single-family homes more accessible to persons with 
disabilities.
    There is no doubt that we should do everything that we can 
to ensure equal access and mobility to persons with 
disabilities. And this legislation hopes to address that 
laudable goal. However, I do hope that, in the course of this 
discussion, that our witnesses here today, and perhaps the 
sponsor, would be able to address several of the concerns that 
have been raised and brought to my attention.
    For example, this legislation sets up new building 
specifications for Federal housing programs that may be 
different from other building codes financed in the 
conventional market. Could this create confusion? And could 
this add additional cost to the price of a single-family home? 
I think that's a good question to ask.
    Also, some of the enforcement and compliance provisions in 
the Act are unclear, and may present an additional burden on 
State and local governments. For instance, how will 
modifications to homes previously deemed compliant be handled? 
And how do you envision that States will monitor and finance 
compliance oversight and enforcement of newly-built and 
existing homes?
    Finally, I look forward to hearing from the witnesses 
regarding the liability provisions included in the bill. Some 
folks have raised concerns that they are vague and open-ended 
and could expose homeowners to significant legal liabilities 
which could add, again, considerable cost to the building of 
new homes or renovating existing homes.
    But again, I would like to emphasize that the goal of 
accessibility for either the aged or folks with disabilities or 
anyone who has a challenge in their lifestyle, where they 
cannot--where accessibility is an issue when they are looking 
for a place to live, is something that I think we should look 
for. We have so much technology and knowledge on how to create 
and assure accessibility to buildings and rooms and interior 
doors and bathrooms and all of these things, that we ought to 
use what we know and put it to good use for the future 
buildings.
    So I thank the Congresswoman, and I thank the chairwoman.
    Chairwoman Waters. Thank you very much.
    I am pleased to welcome our first distinguished panel. Our 
first witness will be the Honorable Jan Schakowsky, 
Councilwoman [sic] from the Ninth District of the State of 
Illinois. Thank you for appearing before the subcommittee 
today. And, without objection, your written statement will be 
made a part of the record. You will now be recognized for 5 
minutes.

      STATEMENT OF THE HONORABLE JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Madam Chairwoman and Ranking 
Member Capito. I could tell by your opening statements that you 
understand what this issue is, but let me talk a little bit 
about the Inclusive Home Design Act of 2009.
    I want to thank all of the witnesses who are here today, 
with a special shout-out to Alberto Barrera of Access Living in 
Chicago, whom I have known and worked with for a long time.
    The Inclusive Home Design Act is a forward-looking and 
commonsense initiative that would make more new homes 
accessible for people with disabilities. In addition to 
benefitting individuals with existing disabilities, including 
disabled veterans, it will also help to accommodate our 
increasingly older population by allowing seniors to age in 
place.
    The bill's requirements are simple. The Inclusive Home 
Design Act would require that, when practical, all newly-built 
single-family homes receiving Federal funds would have to meet 
four specific accessibility standards: first, the home would 
have at least one accessible entrance into the home, zero step; 
second, the doorways on the main level of the home must be wide 
enough to accommodate a wheelchair; third, electrical and 
climate controls--light switches, thermostats--must be placed 
at a reachable height from a wheelchair; and finally, the main 
floor must have at least one wheelchair-accessible bathroom.
    The cost of adopting those standards for a single-family 
home is nominal, especially when compared to the cost of 
retrofitting later. The average cost added for homes built with 
accessibility features is between $100 and $600. Retrofitting a 
home, on the other hand, can cost many thousands of dollars.
    Homes with these basic features are for everyone. For 
individuals who have a long-term disability, it expands the 
number of homes they can buy or rent. We have worked closely 
with the Paralyzed Veterans of America in developing this 
legislation, and they are supportive of the bill for our 
wounded warriors.
    Many of us will face some short-term disability during our 
lifetime. Being able to heal in your home, rather than in a 
hospital or rehab bed, is both good for the healing process and 
reduces the cost of a hospital stay. It's good for individuals 
who have friends or family members with disabilities who come 
by for a visit.
    Finally, there is the advantage of being able to--I want to 
expand on the issue of being able to age in place. In 2000, 
there were 30.5 million people between 65 and 84 years old, and 
that number will grow to 47 million by 2020. Nearly 3 in 5 
seniors over the age of 80 suffer from some kind of physical 
impairment. And often, the prohibitive cost of making existing 
homes accessible deprives seniors of their independence, 
pushing them into nursing homes.
    The cost of nursing home care is expensive, and a large 
proportion is paid for with public dollars under Medicare and 
Medicaid. The national median rate for a year in an assisted 
living facility is $38,000, where nursing homes can cost up to 
$75,000 a year. We could save a lot of money if individuals 
could continue to live in their homes with supportive services.
    But incredibly, entire developments are being built and 
marketed as senior communities, thousands of homes that people 
are going to have to leave as they age, because they don't 
include basic accessible features in their homes. Allowing more 
people to age at home will save taxpayers and help improve the 
quality of life for our seniors.
    This issue is--this idea is doable, because it has been 
done before. For almost 2 decades, and all over the country 
since 1992, more than 40 cities and local communities have 
implemented either mandatory or voluntary ordinances for 
including basic accessibility features in newly-constructed 
single-family homes: Bolingbrook, Illinois; Atlanta, Georgia; 
Iowa City, Iowa; St. Petersburg, Florida; Pima County, Arizona; 
Vermont; Texas; Kansas; and Minnesota. From north to south, 
east to west, communities have had great success in building 
inclusive homes.
    Pima County, Arizona, passed an ordinance in 2002, thanks 
to our colleague, Representative Raul Grijalva, and in the last 
8 years, more than 21,000 homes have been built. I want to 
quote from the Pima County chief building official. The county 
ordinance was ``at first resisted by builders, based on the 
fact that it would require costly changes to conventional 
design and construction practices. But it became evident that 
with the appropriate planning, the construction could result in 
no additional cost. Indeed, the jurisdiction no longer receives 
builder complaints regarding the ordinance, and the ordinance 
has been so well incorporated into the building of safety plan 
review and inspection processes, that there is no additional 
cost to the county to enforce its requirements.''
    There really is no magic to some of these rules, just 
habit. An accessible home is just as attractive to any buyer or 
renter. Door widths or placement of light switches are 
arbitrary decisions, often unnoticeable. But the wrong decision 
can make your home unlivable.
    And so I would hope, as the economy continues to recover 
and home building starts to pick up, that the homes that are 
built should be ones that anyone can live in, and anyone can 
visit.
    Thank you.
    [The prepared statement of Representative Schakowsky can be 
found on page 20 of the appendix.]
    Chairwoman Waters. Thank you very much, Congresswoman 
Schakowsky. Someone told me that I misspoke and called you 
``Councilwoman.''
    Ms. Schakowsky. Oh.
    Chairwoman Waters. Thank you very much. I would now like to 
ask unanimous consent that you be considered a member of the 
subcommittee for the duration of the hearing. And would you 
like to join us on the dais?
    Ms. Schakowsky. I would. I am wondering if I could just 
deal with one issue that Representative Capito raised.
    Chairwoman Waters. Certainly.
    Ms. Schakowsky. And that is the--actually, the two issues. 
I hope I have answered some of the cost of the homes. But the 
issues of enforcement and liability, I think that the language, 
in fact, in the bill can be made clearer, less vague, and I 
would really appreciate the opportunity to work with the 
committee to address those questions so that we can get 
agreement on those.
    Chairwoman Waters. Thank you. We will be happy to do that.
    Ms. Schakowsky. Thank you.
    Chairwoman Waters. I would now like to introduce witness 
panel two. I am pleased to welcome our distinguished second 
panel. Our first witness will be Ms. Eleanor Smith, director, 
Concrete Change.
    Our second witness will be Mr. Alberto Barrera, manager of 
community development, Access Living of Metropolitan Chicago.
    Our third witness will be Mr. Kelly Buckland, executive 
director, National Council on Independent Living.
    Our fourth witness will be Dr. Janet Smith, associate 
professor, and co-director of the Nathalie P. Voorhees Center 
for Neighborhood and Community Improvement, University of 
Illinois at Chicago.
    Without objection, your written statements will be made a 
part of the record. You will now be recognized for a 5-minute 
summary of your testimony.

    STATEMENT OF ELEANOR A. SMITH, DIRECTOR, CONCRETE CHANGE

    Ms. Eleanor Smith. Good afternoon. I am very glad to have 
the opportunity to address you all. My name is Eleanor Smith, 
and I am the director of Concrete Change, a nonprofit based in 
Atlanta which I helped found in 1987. The mission is working to 
make basic access the norm in new houses, whether or not the 
first resident has a disability.
    As a small child in the 1940's, I had a severe case of 
polio, and I faced a forbidding world of no curb cuts, no 
access to public buildings, and only a handful of universities 
with access. When I became the age where I could go out in the 
world on my own, only with great difficulty could I find an 
apartment to live in. For instance, I lived in a house for 6 
months where the narrow bathroom door forced me to crawl on the 
floor each time that I used the bathroom.
    As an adult, I saw various laws enacted that greatly 
increased access to government buildings. And in 1991, Federal 
requirements were added for new residential buildings. However, 
detached single-family houses and townhouses remain the housing 
type that has no widespread Federal law covering it. And as a 
result, the great majority of those houses are built new with 
basic barriers such as steps at all entrances and narrow 
bathroom doors.
    The number of houses that need access is very often greatly 
underestimated. Estimators often count only wheelchair users 
when, in fact, great numbers of people who use walkers or have 
poor balance or stiffness or weakness also cannot negotiate a 
step. In fact, research has shown that a very high percentage 
of all new houses will at some point during the lifetime of the 
house have a resident with a severe long-term mobility 
impairment. And it is impossible to predict in which households 
a person will develop a disability.
    The Inclusive Home Design Act properly prioritizes those 
few features that have the most and harshest impact on people's 
lives. Steps at all entrances and narrow bathroom doors cause 
very intense problems. The people who cannot afford to retrofit 
live in danger and isolation. They often cannot exit the house 
independently in case of fire, or enter their own bathroom. 
Increased falls, as people struggle with steps. Increased 
bladder and kidney problems of people who reduce their water 
intake chronically year after year, because of difficulty of 
fitting through their bathroom door. Decreased health of 
caretakers who have to lift their loved one frequently because 
of steps and carry bedpans more often because of lack of 
bathroom access. And isolation and depression that develops 
when you cannot visit most of your friends and neighbors 
because of the major barriers in their houses.
    The architectural features of the Act have already been 
proven inexpensive and not difficult to incorporate in the 
great majority of situations. More than 40,000 existing houses 
on the open market have been built over the last 20 years in 
Arizona, Texas, Illinois, Georgia, Ohio, and other States.
    When these ordinances and policies were first proposed, 
they were often labeled impractical, including by some building 
professionals. But they have proven practical. These houses run 
the gamut from very affordable to high-end. They include houses 
built on concrete slabs and houses built over basements, on 
very hilly terrain as well as level terrain, climates and soils 
ranging from Arizona to northern Illinois.
    Although these ordinances and policies have been producing 
houses from between 4 and 20 years, none has been rescinded. 
This seems to me to attest to the practicality of the access 
features and the inspection enforcement procedures that have 
been used to bring them about.
    While the cost of--Representative Schakowsky named the low 
cost that these builders, experienced builders, have named, 
much lower than costs named by builders who have not yet become 
experienced--building basic access in new homes has been 
demonstrated to be low, the cost of continuing to build with 
barriers is very high. Renovating existing homes to remove 
barriers costs exponentially more than creating basic access at 
the time of construction. State and local funds for these 
renovations continue to run out early on in the fiscal year, 
and some of those funds are not available to renters, leaving 
renters particularly vulnerable to living in dangerous homes.
    Even more costly--again, as Representative Schakowsky 
mentioned--is the cost of nursing home care, because the 
features that are in the bill are the very ones needed to come 
home from the hospital.
    [The prepared statement of Ms. Eleanor Smith can be found 
on page 35 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Mr. Alberto Barrera?
    Ms. Eleanor Smith. You're welcome.
    Chairwoman Waters. Thank you.
    Mr. Barrera. Hi, good afternoon.
    Chairwoman Waters. Good afternoon.

 STATEMENT OF ALBERTO BARRERA, MANAGER, COMMUNITY DEVELOPMENT, 
             ACCESS LIVING OF METROPOLITAN CHICAGO

    Mr. Barrera. I would like to thank Congresswoman Jan 
Schakowsky and the members of the Subcommittee on Housing and 
Community Opportunity for allowing me to testify today on an 
issue that is at the heart of all the advocacy work that I do.
    My name is Alberto Barrera. For the past 20 years at Access 
Living, I have been personally involved in advocating for 
housing in publicly-assisted housing. Access Living is the only 
center for independent living serving the 600,000 people with 
disabilities in metropolitan Chicago. For the last 30 years, we 
have dedicated ourselves to the self-determination and 
independence of people with all types of disabilities.
    Our work affects people with disabilities not only in 
Chicago, but throughout the country. We have fought and 
continue to fight to increase access to public transportation, 
public education, employment, health care, and housing. Above 
all, we look to find ways to liberate our people from systemic 
segregation and warehousing. Housing is the key to our freedom.
    Publicly-assisted housing is the main source of housing for 
people with disabilities earning SSI and SS DI incomes. In most 
cases, these incomes are at 15 percent or less of the area 
median income. Access Living receives an average of 4,000 
inquiries for accessible affordable housing annually, and an 
average of 60 individuals with disabilities come to our monthly 
housing counseling meetings.
    The Chicago Housing Authority has reported that in 2009, 
they received 84 requests from residents with disabilities 
requesting retrofit modifications for ground floor, no-step 
entry units. So far this year, the CHA has received 62 such 
requests. We at Access Living think that the actual demand for 
accessible housing is much higher.
    For the past 10 years, Access Living has been administering 
an access modification program funded by the CHA. Our 
modification program assists people with disabilities in CHA's 
home choice voucher program. What started as a pilot program 
for $30,000 has now reached $145,000 annually. We assist 60 to 
70 very low-income residents with disabilities. Of course, this 
doesn't begin to address the total need in our community.
    Access Living's retrofit fund covers very basic 
modifications: wider entryways; accessible switches and 
outlets; ramps; and bathroom modifications such as grab bars. 
These are some of the basic access features included in the 
Inclusive Home Design Act. There are other modification 
programs throughout the country, but we cannot depend on 
retrofits for basic access. Most have long waiting lists, and 
it's not unusual for people to end up in a nursing home or die 
while waiting for modifications.
    This legislation, the Inclusive Home Design Act, has been 
in development for 20 years or more, and in Congress for 8 
years. It came out of a joint effort between grassroots people, 
Congresswoman Schakowsky, and advocates such as Ms. Eleanor 
Smith, and many other activists who were deeply concerned with 
the exclusion of people with disabilities from housing 
opportunities.
    Many national grassroots organizations support the Home 
Inclusive Design Act, including the national grassroots 
disability rights organization ADAPT, which has also included 
this issue in their housing agenda.
    This legislation will begin to end the practice of 
``exclusion by design,'' which is a form of disability 
oppression. Simply put, requiring that all newly-constructed 
publicly-assisted homes contain a no-step entrance and usable 
space on the ground floor will finally provide real access to 
options for people with disabilities in our struggles to locate 
affordable, accessible, and integrated housing.
    The Inclusive Home Design Act is the missing link of the 
Fair Housing Amendments Act of 1988. Its passage will complete 
the circle of civil rights in publicly-assisted housing, 
guaranteeing full and equal access for all. The Inclusive Home 
Design Act is a step forward to end the culture of social 
isolation currently accepted and practiced in our country.
    Chairwoman Waters. Would you wrap it up, please?
    Mr. Barrera. Sorry. It will provide equal opportunity for 
very low-income Americans with disabilities to have equal 
access to all publicly-assisted housing.
    We believe that the passage of this bill, and the hoped-for 
passage of the Choice Community Act, will provide the structure 
needed to honor the spirit of the Americans with Disabilities 
Act, the ADA, the spirit that says that every American with a 
disability has a right to full access to society.
    [The prepared statement of Mr. Barrera can be found on page 
23 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Mr. Barrera. Thank you, again.
    Chairwoman Waters. Thank you.
    Our third witness will be Mr. Kelly Buckland.

   STATEMENT OF KELLY BUCKLAND, EXECUTIVE DIRECTOR, NATIONAL 
              COUNCIL ON INDEPENDENT LIVING (NCIL)

    Mr. Buckland. Madam Chairwoman, Ranking Member Capito, and 
distinguished members of the committee, good afternoon and 
thank you for the opportunity to speak on behalf of the 
National Council on Independent Living.
    NCIL is the longest-running national cross-disability 
grassroots organization run by and for people with 
disabilities.
    Founded in 1982, NCIL represents thousands of organizations 
and individuals, including centers for independent living, 
statewide independent living councils, individuals with 
disabilities, and other organizations that advocate for the 
human and civil rights of people with disabilities throughout 
the United States.
    Since its establishment, NCIL has carried out its mission 
by assisting members--centers for independent living in 
building their capacity to promote social change, eliminate 
disability-based discrimination, and create opportunities for 
people with disabilities to participate in the legislative 
process to effect change.
    NCIL promotes the national advocacy agenda set by its 
membership and provides input and testimony on national 
disability policy.
    Since 1979, I have been actively involved in advocating for 
the rights of people with disabilities. And over the years, I 
have worked for the protection advocacy system, a center for 
independent living, and a statewide independent living council, 
and for other councils that promote the direct service and 
systemic changes of the independent living movement.
    Recently, I moved to the Washington, D.C., area and I spent 
an entire year looking for a house to purchase that was 
accessible enough that I could even try to modify it to meet my 
needs. I then had to spend thousands of dollars making my house 
accessible. This expense would have been considerably less if 
the home had already had some basic accessibility features. The 
Inclusive Home Design Act will require accessibility features 
for people with disabilities in newly-constructed single-family 
houses and townhouses that are federally assisted.
    Finding accessible housing is a constant, ongoing struggle 
for people with disabilities in most communities. Despite the 
impact of legislation mandating accessibility in housing such 
as section 504 of the Rehabilitation Act and the Fair Housing 
Amendments Act of 1988, the vast majority of housing available 
across the country is not accessible. According to the National 
Low Income Housing Coalition, since 1995, about 360,000 
project-based Section 8 units have been lost to conversion to 
market-rate housing. Annually, another 10,000 to 15,000 units 
leave. Those housing units are not being replaced at an 
equivalent rate.
    Compliance with the Fair Housing Act accessibility 
requirements is still erratic, after more than 2 decades. In 
April, New York Attorney General Cuomo brokered agreements with 
six large real estate developers over the lack of accessibility 
in their buildings. And in July, HUD charged a Chicago 
developer and architect with failure to build accessible units.
    Centers for independent living throughout the country 
consistently grapple with the lack of accessible and affordable 
housing. One of our biggest challenges is not only finding 
accessible housing for people living in the community, but 
finding it for those who want to transition out of an 
institution. In many communities, the biggest obstacle to 
people with disabilities living in their communities is the 
lack of affordable and accessible housing.
    Accessible single-family housing will also allow seniors to 
age in place and allow for families to stay in their homes, 
should they develop a disability as an adult, or if they have a 
child with a disability. The cost to renovate an inaccessible 
home is much higher than if the home was built with 
accessibility features.
    People can also suddenly find themselves needing 
accessibility improvements due to a disability. Renovations and 
modifications can range from the simple installation of grab 
bars to the more extensive addition of ramps, stair glides, the 
widening of doorways, and renovations of bathrooms and 
kitchens. The cost of these renovations can prohibit many 
people with disabilities and seniors from making the necessary 
accessible improvements.
    NCIL supports the language in the Inclusive Home Design Act 
that will create accessible housing which is needed in order 
for people to move out of institutions and back into their 
communities. Living in the community is essential for people of 
all ages and all disabilities to be true members of the 
community.
    NCIL is dedicated to ending the institutional bias, not 
only in health care and housing, but in society's perceptions 
of the capabilities of people with disabilities.
    For example, Mark Chambers was a computer programmer living 
in a house in San Francisco. He was mugged on a stairway and 
hit over the head with a rock, resulting in a traumatic brain 
injury and paralysis. He was moved into the City in a nursing 
home known as Laguna Honda, and spent over 10 years there. He 
sued under the Olmstead Decision, asking to be moved into the 
community. When he was released, the City had to find a unit 
accessible from outside and spent thousands of dollars to 
renovate the unit to accommodate Mark's needs. This is an 
example of a person who lost everything due to disability, 
except the fight to get back to his community.
    Chairwoman Waters. Could you wrap it up, please?
    Mr. Buckland. Madam Chairwoman, the Inclusive Home Design 
Act is about more than creating accessible homes. People with 
disabilities who historically have been isolated, at first shut 
away to institutions and nursing homes, are now isolated in 
their communities. Because the overwhelming majority of single-
family homes and many of the multi-family homes still have 
steps, people with mobility disabilities not only cannot live 
where they want to live; they also cannot visit their family, 
friends, and neighbors.
    Thank you, Madam Chairwoman. I look forward to answering 
any questions.
    [The prepared statement of Mr. Buckland can be found on 
page 27 of the appendix.]
    Chairwoman Waters. Thank you very much. Dr. Janet Smith.

   STATEMENT OF JANET L. SMITH, ASSOCIATE PROFESSOR, AND CO-
 DIRECTOR OF THE NATHALIE P. VOORHEES CENTER FOR NEIGHBORHOOD 
  AND COMMUNITY IMPROVEMENT, UNIVERSITY OF ILLINOIS AT CHICAGO

    Ms. Janet Smith. Thank you, Madam Chairwoman. Good 
afternoon, members of the committee. Thank you for this 
opportunity to testify today.
    I am an associate professor in urban planning and policy at 
the University of Illinois at Chicago, and I am co-director of 
the Nathalie P. Voorhees Center for Neighborhood and Community 
Improvement, a 32-year-old research center at UIC that assists 
community organizations and government entities in their 
efforts to improve the quality of life in the Chicago area and 
Illinois, and also in communities around the United States.
    Most of our research is done in partnership with community 
organizations such as Access Living, and also policy 
stakeholders. Since 1997, I have led several large-scale 
research projects which are cited in my CV--you can look at 
that for my record.
    Regarding research on accessible housing needs of people 
with disabilities, I was the principal investigator of a 
recently completed study for the National Council on Disability 
entitled, ``The State of Housing in America in the 21st 
Century: A Disability Perspective.'' Before the NCD report, I 
completed a study along similar lines on accessible housing and 
affordable housing for people with disabilities in Illinois.
    Affordable, accessible, and appropriate housing is critical 
and integral to making a community more livable for people with 
disabilities and, I would argue, for all of us. The Inclusive 
Home Design Act is an important step toward this end.
    Today, I want to summarize some key findings from the 
National Council on Disability Report, which all 
representatives should have received last spring. And if you 
didn't, I brought copies on a thumb drive for you.
    Currently, an estimated 35 million households have one or 
more persons with a disability, which is about one-third of the 
households in 2007. Nearly 15 million of these households own 
their own home. Most are between the ages of 65 and 85 years 
old. But such a high level of ownership among this age group is 
likely due to the fact that many purchased their homes before 
acquiring a disability as they aged.
    Many people are likely to face challenges if they want to 
remain independent in a home as they age. National data--for 
which there is not a lot, but we have some--indicates that 
hundreds of thousands of people with disabilities need basic 
home modifications to make their homes accessible.
    In my testimony, I give you a lot more data. But just to 
kind of highlight, we looked at the largest need; it is often 
for people needing grab bars or hand rails. In 1995, it was 
estimated to be about 788,000. We know that that number is much 
higher now.
    Similarly, we found that there were a lot--most basic needs 
were for things that would make a home visitable: that is, 
needing ramps, elevators, or lifts to get into their unit once 
in the building, widened doorways, and accessible bathrooms. 
Again, the numbers that are available are in the testimony 
itself.
    Homeowners have the largest unmet need, because of the fact 
that homeowners are the largest population when you look at 
housing and compared to renters. While overall need is greater 
in urban areas, a larger portion of people in rural areas are 
likely to be living in single-family homes that are not 
accessible. That's because more rural folks are in homeowner 
situations and single-family homes, in particular.
    I am not going to go into a lot of data that has already 
been cited--thank you to Representative Schakowsky--but these 
numbers are just going to continue to increase, in terms of the 
need, when we look ahead into the future. Particularly with the 
aging population--and I would note also with the Baby Boomers 
who are coming on into the point of wanting to live in more 
accessible and inclusive communities--we think that--based on 
the research we did, we think that the Inclusive Home Design 
Act of 2009 can meet these needs.
    Most accessible housing currently in the private sector 
exists because of Federal laws, many--the ones that Chairwoman 
Waters mentioned at the start of this committee meeting. That 
is the Rehabilitation Act of 1973, the Americans with 
Disabilities Act in limited parts, and the Fair Housing Act. 
For the most part, though, single-family homes are not covered 
by these laws at all. Yet single-family homes make up a large 
part of the U.S. housing stock, which means many homes in the 
United States are not visitable for a person with a disability.
    As we have heard earlier, there is reference to over 40 
jurisdictions across the Nation that have adopted either 
mandatory or voluntary policies. Estimates are--and these are 
very conservative estimates--that over 30,000 homes have been 
constructed as a result of those voluntary and mandatory rules.
    However, when we start to look at these examples, only a 
small fraction of all the U.S. jurisdictions--and it's uneven, 
and it starts to create an uneven housing market for people 
with disabilities. The Inclusive Home Design Act could change 
this, since it would target housing built with Federal funds. 
This includes the largest sources of Federal funding that we're 
already building housing with, and particularly affordable 
housing, which is an area that people with disabilities are 
more likely to be needing assistance with.
    So we can look at it through the lens of the Department of 
Housing and Urban Development's Community Development Block 
Grant, through the home investment fund. We can also look at it 
through the largest program, through the USDA that helps with 
rural housing, the 502 single-family home. Most of that is help 
with the construction of new housing, new single-family homes 
in rural areas. And if we added to it the low-income housing 
tax credit, we could add hundreds of thousands of units very 
quickly that would be visitable for people with disabilities 
across the whole United States.
    It's important to keep in mind that these Federal programs, 
however, assist with both new construction and rehabilitation. 
And one of the things in the Act is focusing on new 
construction, which is very important and very cost-effective.
    However, if there were opportunities, I would encourage 
looking into the ability to add incentives to encourage 
retrofitting housing where it's not cost-prohibitive, to 
actually make those homes as visitable as possible. And again, 
it would help to distribute and make sure that there is more 
accessible and visitable housing sooner.
    I think I will stop at this point and just say that if 
there were additional things that you were going to consider 
that could also help move this forward--because I think one of 
the things that we're looking at is Federal funding--the 
National Affordable Housing Trust Fund is funding that needs to 
be added--oh, I'm sorry--is something that needs to be 
supported, and that could also include more housing.
    [The prepared statement of Ms. Janet Smith can be found on 
page 40 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Ms. Janet Smith. Sorry about that.
    Chairwoman Waters. I would like to thank you all--
    Ms. Janet Smith. Thank you.
    Chairwoman Waters. --for your testimony. It was 
tremendously informative. And I certainly have a few questions, 
and I would like to recognize myself for 5 minutes.
    I think it was you, Ms. Eleanor Smith, who talked about 
retrofitting. And as I began to think about the CDBG program in 
our cities, I don't recall seeing many of them--or any of them, 
and maybe I just didn't know where to look; I didn't look--
dedicate money for retrofitting for homes for people with 
disabilities. Do you know much about that? Yes?
    Ms. Eleanor Smith. It's my understanding, from looking at a 
lot of the programs that there may be retrofits for people who 
specifically have a disability now. But in terms of 
retrofitting other houses that would be easy to retrofit, that 
would be a wonderful plan. It would be good to distinguish 
between what is easily retrofitable, and to do that at the time 
of retrofit, and let the other ones go if they don't have a 
disabled individual moving in.
    So I can't answer that too specifically, except I agree 
with your observation. It is distressing that--to watch--when 
Georgia runs out of retrofit money in March for the year of 
2009, leaving 290-some people on the list, it is discouraging 
to go down the street and see approximately 80 new units going 
up with the very same barriers that people are struggling to 
remove.
    So, I do think it's important to have both strategies. But 
we will never run out of houses to retrofit, but we do have an 
opportunity to move forward and not recreate the very same 
barriers in new houses that we're struggling to get out of old 
houses.
    Chairwoman Waters. Thank you very much. Let me just ask Mr. 
Buckland. What do you say to developers who say, ``We would 
like to do it, but it's just too costly. When we're building, 
it would drive up the cost so much that it would not be 
affordable to the average person with a disability.'' What do 
you say?
    Mr. Buckland. Madam Chairwoman, my experience, through 
doing a lot of public policy work, is that once that stuff gets 
built into the code, it's no longer any more costly. Once they 
start building to the code and put those accessibility features 
in place, it really is no more costly to build a house that is 
accessible. It's only costly when you have to go back and 
retrofit them.
    So really, you need to design the house to be accessible 
from the beginning, and it won't add any costs. That would be 
my response to the builders who say that.
    Chairwoman Waters. Thank you very much. And Ms. Janet 
Smith, what are the estimates of the unmet need?
    Ms. Janet Smith. There are different ways to look at that. 
We have different sources of data, and we have pulled from, for 
example, the 1995 American housing study that was done. Only 
once have they asked this question very specifically of 
families, and I would encourage that we look at asking this 
again. We're starting to include people with disabilities again 
in the American housing survey of this last year.
    But based on that, we find that we have, just specifically 
looking at people who identified the need in their housing that 
would help them with their disability to have grab bars or hand 
rails, 788,000. And, like I said, that's a number from 1995. We 
know it has to have increased, we just haven't been able--we 
don't know how to project how much further. Ramps were over 
612,000. An elevator or a lift to access the unit once in the 
building was 309,000. Another 300,000 needed widened doorways 
in their unit, the doorways and halls in the unit. Another 
566,000 needed accessible bathrooms.
    These are people who have identified the need for it. And 
we say it's a conservative estimate, because there are probably 
a lot more people who may not realize what needs they have, and 
how to identify them. And again, it's data that's over 15 years 
old. So we know that the population has extended. It has 
increased immensely since then.
    When we look at just estimates, though, for people under 
the age of 65, the numbers have ranged between 3.5 million and 
10 million who are in need of accessible housing and currently 
don't have it.
    Chairwoman Waters. Thank you very much. Ms. Capito?
    Mrs. Capito. Thank you, Madam Chairwoman. I thank the 
witnesses. We have just heard some very large figures of folks 
who are in need of housing that has been fit for accessibility. 
And absolutely, I believe the statistics are probably low for a 
lot of different reasons. And I appreciate the fact, too, that 
living--I am from a rural area, and understanding that 
accessibility or finding a place or the availability to move to 
another place is exceedingly difficult, in that we're the low 
density areas of rural areas in America.
    But--so I guess one of my questions would be if--
Congressman Schakowsky said the cost was--I believe the figure, 
you said, was somewhere around $100 to $800 or something like 
that.
    Ms. Schakowsky. To $600, yes.
    Mrs. Capito. To $600. The cost of a house, that's a minimal 
expenditure for a home. Why do you think in the new building 
that's going forward that this isn't sort of voluntarily 
being--if the need is so great, and--why wouldn't builders be 
building to some of these specs, anyway, just because--
anticipating a baby boom and aging in place, and all of those 
kind of things?
    Ms. Eleanor Smith. That is a really good question that I 
have puzzled over for approximately 20 years. And I think that 
it is a mix of things. I think that I have been told--and so I 
believe--that builders like to do what they have done over and 
over again. It's the fastest and quickest way to do. And until 
they are pushed to do differently, like they have been in Pima 
County, where there are now 20,000 houses up, they use the same 
methods, just somewhat out of habit.
    I think that there are misperceptions of what the house 
will look like. And I have included in my written testimony 
that I gave you some photos of the houses we have talked about 
from those places.
    I think that, to be honest, as well, an unspoken reason why 
these issues haven't rushed forward from the public quite as 
quickly as green and some other issues is that we're not so 
eager to think about our bodies deteriorating, or those people 
over there not being able to come to our house. It comes home 
to roost very quickly in a family.
    But I do think that coupled with not seeing the good 
examples, and coupled with builders who like to do things the 
same ways, is the issue that we need to be encouraged more 
strongly to really look at the fact that change happens in 
bodies, and everybody grows old, and it doesn't have to be the 
end of the world.
    Mr. Barrera. May I make a comment?
    Mrs. Capito. Yes, Mr. Barrera. I'm going to ask you another 
question, so if you want to add some of that, as well, the 
other question I wanted to ask you is you mentioned in your 
testimony that there are other modification programs in 
different areas of the country. And I don't know if you 
highlighted one or two that you think do a really good job of 
this, whether it's local communities, or a city or a county--
    Mr. Barrera. There are other modification programs that 
United Cerebral Palsy has, modification funds throughout some 
of their State chapters throughout the country. Many State 
finance agencies, including our own in Illinois, also have 
modification programs. The City of Chicago also has other 
modification programs.
    Most modification programs come out of CDBG funds 
throughout the country, including in rural areas. But I have to 
restate that we don't want modification funds to take the place 
of basic access or take the place of the Inclusive Home Design 
Act. We have to--when modification funds are created, they are 
limited to a certain amount of money per modification, ranging 
from $500 to up to $10,000, $12,000, depending who is providing 
the modification. At Access Living, we have a cap of only 
$5,000 per modification.
    So it varies on the amount of money you can spend on 
modification. Most of them are only one-time deals. And when 
disability progresses, you're going to need something else, in 
most cases.
    Like I mentioned in my testimony, there are extensive 
waiting lists in most of them. And people have ended up in 
institutions or, like I said, end up dying, waiting for these 
modifications. It's my knowledge that in an Illinois 
modification program that was administered also by Access 
Living, four people died waiting for modifications.
    Chairwoman Waters. Thank you very much--
    Mr. Barrera. I wanted to add, also on the question of 
developers complaining about cost. This has been historical in 
the private sector, including when we made attempts--when we 
successfully passed the Fair Housing Amendments Act 
construction and design standards. We had a lot of battle with 
some builders.
    Chairwoman Waters. Thank you very much.
    Ms. Schakowsky?
    Ms. Schakowsky. Go ahead and finish your thought about 
the--
    Mr. Barrera. I just wanted to finish my thought that this, 
the Inclusive Home Design Act, will trigger publicly-assisted 
houses, and where most developers are not-for-profit 
developers, developers that are community developers, they also 
get funding from low-income housing tax credits, CDBG, and 
other government fundings. And the ones that I have spoken 
with, they have endorsed, and they have backed up, the 
Inclusive Home Design Act.
    Thank you.
    Ms. Schakowsky. It's not just those that are not-for-
profits, though. Is that not true, Ms. Smith, that we have 
developers now in Pima County, 21,000 homes? And it seems to 
work really well.
    And I would also like to get a little bit to the issue of 
enforcement of these laws, and talk about how it is or isn't a 
problem. Go ahead.
    Ms. Eleanor Smith. Just as the Inclusive Home Design Act 
would do, the laws that kind of mirror it earlier on permit an 
exemption on a very odd lot, on a lot where you can't do it. 
Interestingly, across the country, about 95 percent have proven 
feasible of lots. Only about 5 percent or less have proven 
unfeasible.
    What the local governments who do this, who carry out the 
law, they have a checklist that they use that's very simple, 
because these features are very visible. They're not behind the 
wall. So when they're out for the regular inspections, not a 
special inspection, they check for these issues. And then, if 
there--it's not present, they press on the builder to correct 
that error.
    And they also check, of course, the plans that come in. And 
if they see plans coming in that do not have the features, they 
again educate the builder on how he could do this. So--
    Ms. Schakowsky. So do places like Pima County review the 
plans that are done before the building?
    Ms. Eleanor Smith. It is my understanding they do. And I 
know in Atlanta, they did. It's two slightly different 
situations, because Atlanta is more like the Inclusive Home 
Design Act in that it refers only to certain houses, whereas in 
Pima County, it's every house built. And the same way with 
Bolingbrook, Illinois, every house built.
    So I think in those cases, they applied the same methods 
they do if wiring is not correct, or if the houses have not 
plumbed correctly. They deal with it on a case to case basis. 
And then, if a lot is extremely difficult, they do as they 
should, remove the requirement for the zero step entrance, and 
let it proceed as follows.
    Does that answer your question?
    Ms. Schakowsky. It does. I wanted to ask--any one of you 
can answer--I think there is this perception--I'm glad you 
included pictures--that somehow accessibility isn't pretty. And 
I am wondering, especially in these places where all homes need 
to be built that way, is there any problem in selling them to 
people without disabilities? Are there any rejections because 
the home isn't attractive enough?
    Ms. Eleanor Smith. I don't believe there are. I--where I 
live, they are seamlessly--the zero step entrance is seamlessly 
done. People don't usually see a 32-inch door and say, ``Oh, 
what a strange, wide door.'' They really don't notice it.
    Where I live, we voluntarily, in our co-housing community, 
created 67 houses with basic access. No one who has moved in 
has noticed it, until they start bringing in their furniture. 
When they say, ``Oh, good. It was so hard to get it out of my 
old house.''
    But it's the retrofitted houses that look awkward. And 
usually, because of the many houses I have lived in, all the 
ramps we have had to stick on an old house, an existing house, 
have had to be removed by the new owner because they didn't 
look good. But the houses in our community where people have 
moved in and out, not only did they not notice them, but 
obviously, no one is taking a jackhammer and removing the 
stoop, because it just goes straight up to the porch.
    Ms. Schakowsky. For future work in passing this bill, are 
there builders who will testify to the fact that this is a good 
thing to do? Alberto?
    Mr. Barrera. Yes. Yes, In the Chicago area, I have spoken 
with some builders within the Chicago Rehab Network, which is a 
not-for-profit community developer, and they have supported 
this, including CRN, Chicago Rehab Network. And these people 
have a long history of developing affordable housing.
    So I don't think it would be any problem getting some of 
the developers, even in the private sector, that we know, 
people--
    Ms. Schakowsky. I think that's really important--
    Mr. Barrera. --including architects--
    Ms. Schakowsky. Thank you.
    Mr. Barrera. Including architects.
    Chairwoman Waters. Thank you very much. The Chair notes 
that some members may have additional questions for this panel, 
which they may wish to submit in writing. Without objection, 
the hearing record will remain open for 30 days for members to 
submit written questions to these witnesses, and to place their 
responses in the record. This panel is now dismissed.
    Before we adjourn, the written statements of the following 
organizations will be made a part of the record for this 
hearing: the statement of David P. Sloane, senior vice 
president, AARP; the statement of Darrell Price, housing policy 
coordinator, Access Center for Independent Living in Dayton, 
Ohio; the statement from the Pima County chief building 
official; the statement from the Paralyzed Veterans of America; 
the statement from the Consortium for Citizens with 
Disabilities Housing Task Force; and the statement from a 
coalition of disability advocates from across the country.
    We also have a statement here from the National Association 
of Home Builders.
    Before we adjourn, I will, without objection, give myself 
30 seconds to just say a special thank you to our panelists who 
came here, panelists who happen to have disabilities, and who 
have taken their time and their energy to help us with this 
very important subject, and to support the very fine work of 
Congresswoman Schakowsky. Thank you so very much.
    This meeting is adjourned. Thank you.
    [Whereupon, at 5:07 p.m., the hearing was adjourned.]





                            A P P E N D I X



                           September 29, 2010



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
